Certificate of Service
I hereby certify that on this 30th day of July, 2021, I electronically filed the
foregoing with the Clerk of the Court for the United States Supreme Court. I
further certify that on this day, I sent to this Court one copy (pursuant to Guidance
concerning Clerk’s office operations, April 17, 2020) of the foregoing via Fed Ex. I
further certify that, as required by Sup. Ct. R. 29(3), I served one copy of the
foregoing via U.S. Mail and electronic mail upon:
Ellen Rosenblum

Oregon Attorney General

Benjamin Gutman

Oregon Solicitor General

Appellate Division
Oregon Department of Justice
1162 SE Court St NE
Salem, Oregon 97301
Ellen.f.rosenblum@doj.state.or.us
Benjamin.gutman@doj.state.or.us
Counsel for Respondents
/s/Brad Gourley-Paterson
Brad Gourley-Paterson
Paralegal
Law Office of Brian Patrick Conry

